                              Office of Inspector General


DEPARTMENT OF HOMELAND SECURITY
                              U.S. Department of
                              Homeland Security
                              Washington, DC 20528


    Office of Inspector General


   Independent Auditor’s Report on TSA’s
          FY 2006 Balance Sheet




OIG-08-05                October 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                October 16, 2007

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the audit of the Transportation Security Administration’s (TSA)
consolidated balance sheet as of September 30, 2006. We contracted with the independent public
accounting firm KPMG LLP (KPMG) to perform the audit. The contract required that KPMG
perform its audit according to generally accepted government auditing standards and guidance from
the Office of Management and Budget and the Government Accountability Office. KPMG issued a
disclaimer of opinion on TSA’s financial statements for fiscal year 2006. KPMG’s report identified
seven material weaknesses related to financial reporting, financial systems security, undelivered orders
and contract file maintenance, property and equipment, journal voucher preparation and approval,
grant accrual methodology and monitoring, and accrued leave. It also identified instances of non-
compliance with six laws and regulations, including one violation of the Anti-deficiency Act that
affected certain previously issued financial statements. KPMG is responsible for the attached
auditor’s report dated December 21, 2006, and the conclusions expressed in the report. We do not
express opinions on TSA’s financial statements or internal control or conclusions on compliance with
laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report




                                      Richard L. Skinner
                                      Inspector General
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                  (Unaudited)
                                              September 30, 2006



INTRODUCTION

The United States Department of Homeland Security (DHS or Department) Transportation Security
Administration (TSA or Administration), presents to the American public, Congress, the Office of Management
and Budget (OMB), and the transportation industry the current performance of TSA’s major programs and a brief
description of how the public benefits from them.

The major developments in our program and financial activities and the progress and commitment we have made
to meet our strategic goals are described in the following sections of this report.

Management’s Discussion and Analysis consists of four sections:

•     Mission and Organization Structure provides an overview of the Administration’s mission, organization,
      and major program activities.

•     Performance Goals, Objectives, and Results are designed to ensure that America’s transportation security
      excels in efficiency in protecting the American people.

•     Financial Analysis highlights TSA’s FY 2006 budgetary funding sources, discusses TSA’s efforts to
      improve its financial management systems and procedures, and provides an analysis of TSA’s Balance
      Sheet and stewardship information.

•     Analysis of Systems, Controls, and Compliance summarizes TSA’s FY 2006 Federal Managers’ Financial
      Integrity Act Statement of Assurance. TSA’s efforts to comply with the Federal Financial Management
      Improvement Act and the Improper Payments Information Act are also discussed.

The Balance Sheet and Related Footnotes are an important tool in promoting and improving accountability and
stewardship over the public resources entrusted to the Administration. Statement preparation provides accurate
and reliable information used in assessing performance and allocating resources.

Required Supplementary Stewardship Information relates to areas of Federal Government accountability over
certain resources entrusted to TSA, and to certain responsibilities assumed by TSA, which are not measured in
traditional financial reports. This information focuses on assets and investments made by the government for the
benefit of the Nation.

Readers who would like to know more about TSA’s programs and organization may access the TSA Internet
website at http://www.tsa.gov.




                                                       1
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                     Management’s Discussion and Analysis
                                                   (Unaudited)
                                               September 30, 2006



MISSION AND ORGANIZATION STRUCTURE

On November 19, 2001, Congress enacted the Aviation and Transportation Security Act (ATSA) which
established the Transportation Security Administration. The mission of TSA is to prevent terrorist attacks and to
protect the U.S. transportation network. In carrying out this mission, TSA strives always to be vigilant, effective
and efficient. The organization is led by the Assistant Secretary of Homeland Security for TSA. Field
operations, which consist primarily of aviation security activities, report to the headquarters program offices.

Effective at the beginning of FY 2006, the Federal Air Marshal Service (FAMS) was realigned within DHS from
U.S. Immigration and Customs Enforcement to TSA. During FY 2006, the FAMS was fully integrated into
TSA’s organizational structure and is now a component of TSA’s Law Enforcement / FAMS program.

Transportation systems move billions of people and trillions of dollars worth of goods each year and are vital to
the Nation’s economic prosperity, global competitiveness, and national security. TSA recognizes that terrorism
risks are asymmetric, and traditional linear thinking can not address the uncertainty and complexity of risks of
terrorist attacks on a large, interconnected, and adaptive network like the U.S. transportation system. As a result,
TSA’s security strategy focuses on implementing unpredictable, flexible and layered security measures. Within
the U.S. aviation system, TSA has strengthened aviation security by deploying thousands of explosive detection
systems (EDS), checkpoint x-ray devices, enhanced metal detectors, and explosive trace detection systems
devices. However, the checkpoints constitute only one security layer among many others in place to protect the
U.S. aviation system. Other layers include intelligence gathering and analysis, checking passenger manifests
against watch lists, canine team at airports, federal air marshals, federal flight deck officers, flight crew self-
defense training and more security measures both visible and invisible to the public.

TSA is also actively strengthening security in other modes of transportation. TSA is building security networks
with its partners in other Federal agencies, state and local governments, and the private sector. Through its
Transportation Security Network Management (TSNM) organization, TSA has a “one-stop shop” and
networking hub for stakeholder outreach and policy coordination within and across the transportation modes.
TSNM has created a seamless connection with those who have a stake in transportation security. General
Managers have been appointed in TSNM for each critical transportation area – airlines, airports, business
management, cargo, general aviation, highways, international, maritime, mass transit, network integration,
pipelines, and rail.

MAJOR PROGRAM ACTIVITIES

The following gives a general overview of how TSA endeavors to strengthen the security of, and reduce the risk
associated with, the nation’s transportation systems.

The Aviation Security program allows TSA to develop and deploy systems and programs to ensure air
passengers and air cargo traveling through and entering in the United States are protected through a multi-layered
security system. TSA improved collaborative efforts designed to provide an ever tightening security focus at our
aviation nodes. Deployment of technology, increased regulatory inspections and effective use of local law
enforcement within the airport environment are ongoing efforts, continuing to receive aggressive attention.


                                                         2
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                  (Unaudited)
                                              September 30, 2006



Improving our ability to detect and deter the use of Improvised Explosive Devices through technology, training
and operational testing is a key goal of this program. Increased and innovative use of canine units, Behavior
Detection Officers and Bomb Appraisal Officers will also greatly enhance security and deterrence efforts.

The Law Enforcement / Federal Air Marshal Service (LE/FAMS) program promotes public confidence in our
Nation’s aviation and civil transportation systems through the effective risk-based strategic deployment of highly
trained federal air marshals and other LE/FAMS law enforcement resources in both air and land-based mission
related assignments. TSA continues to engage in an integrated global strategy to help deter terrorism worldwide,
encourage the emergence of air marshal programs in other countries, and develop operational and training
relationships with our international partners. TSA continued its participation in the Crew Member Self Defense
Training and the Federal Flight Deck Officer programs. In addition, TSA continues to enhance cargo security
operations in the aviation sector and train canine teams for use in the commercial passenger aviation, air cargo
and mass transit modes, and is implementing the Force Multiplier Program (FMP) to leverage other Federal law
enforcement officers flying armed on commerical air carriers.

Surface Transportation Security efforts include resources for TSA’s security operations in all non-aviation modes
of transportation. To enhance security in all modes of transportation, TSA initiated Multi-Modal Security
Enhancement Teams (MMSET). MMSETs are used to enhance information management among Federal, state
and local partners and the private sector. The current surge capability of the MMSET program is to deploy 250
FAMs, 500 Transportation Security Officers (TSO) and 30 canines within a 24 hour period. The mission of the
MMSET is to protect the traveling public, deter criminal and terrorist activity, provide surveillance, and report
and/or respond to suspicious activity. Different configurations of an MMSET are used to deter criminal and
terrorist activity, provide surveillance, and build regional surge capability to the response of threats. The
function of the MMSETs will be expanded to check immigration status. TSA will further enhance and expand its
MMSET capability to support TSA’s four concentric rings of security – securing infrastructure perimeter;
enforcing security and surveillance detection; screening passengers, baggage, and cargo; and securing assets.

Transportation Threat Assessment and Credentialing serves as the lead for all name based terrorist threat
assessments, background check and credentialing issues surrounding transportation industry workers, and
domestic passengers. Key initiatives include Secure Flight, Registered Traveler (RT), and the Transportation
Worker Identification Card (TWIC).

Transportation Security Support supports the operational needs of TSA’s extensive airport/field and headquarters
personnel and infrastructure. One recent initiative that is increasing utilization and effectiveness is the
conversion of the Transportation Security Screener position to TSO. This conversion allows TSA to provide a
more progressive career path and to better retain and strengthen the TSO workforce.

PERFORMANCE GOALS, OBJECTIVES, AND RESULTS

The performance information contained within this report is reliable and complete in accordance with OMB
standards:




                                                        3
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                   (Unaudited)
                                               September 30, 2006



DHS Strategic Goal = AWARENESS

                          100 percent distribution of sensitive threat information relative to Department of Homeland
Transportation Security
                          Security / Transportation Security Administration components, field elements and
Support Performance
                          stakeholders.
Goal:
                          Number of successful attacks resulting from mishandling or misinterpreting intelligence
Performance Measure:      information received by TSA intelligence service.
                             FY 2003          FY 2004         FY 2005       FY 2006         FY 2006          FY 2006
Fiscal Year:
                              Actual           Actual          Actual        Target          Actual           Results
Actual:                           0                 0              0               0              0              Met
                          This measure refers to any attack on the U.S. transportation system, which could have been
Description:              prevented given viable resources, and was a result of TSA’s intelligence program mishandling
                          or misinterpreting intelligence information.
                          The results of this measure are indicators of how successful TSA is performing its mission by
                          minimizing analytical errors and maximizing intelligence provisioning to customers and
                          stakeholders. The measure greatly reflects on the partnership with the DHS Office of
Explanation of Results:
                          Intelligence and Analysis and the ability of the agency to communicate and operate within the
                          Department. The public is well-served by preventing loss of life, property, and the financial
                          burden otherwise incurred from failure.

DHS Strategic Goal = AWARENESS

Transportation Threat
Assessment and               Prevent known or suspected terrorist from gaining access to sensitive areas of the
Credentialing Performance    transportation system.
Goal:
                             Number of successful attacks to the transportation system that should have been prevented
Performance Measure:
                             by the program.
                               FY 2003         FY 2004        FY 2005         FY 2006          FY 2006       FY 2006
Fiscal Year:
                                Actual          Actual         Actual          Target           Actual        Results
Actual:                          N/A             N/A              0               0               0             Met
                             This performance measure was developed in FY 2005; therefore data prior to FY 2005 is
                             not applicable. This measure refers to any successful attack that could have been
                             prevented, given current resources, by the sub-programs within Transportation Vetting and
Description:
                             Credentialing (Secure Flight, Crew Vetting, Transportation Worker Identification
                             Credential (“TWIC”), Registered Traveler, HAZMAT Trucker Background Checks, and
                             Alien Flight School Checks).
                             In FY 2006, there were zero reported attacks on our national transportation system. TSA
                             consistently performed effective vetting and credentialing requirements that prevented acts
Explanation of Results:      on terrorism on our national transportation system. The programs and processes associated
                             with vetting and credentialing met the requirements and objectives of ensuring that those
                             individuals using our Nation’s transportation system did not endanger it or cause damage.




                                                         4
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                     (Unaudited)
                                                September 30, 2006



DHS Strategic Goal = PREVENT and PROTECT

Aviation Security         Reduce the probability of a successful terrorist or other criminal attack to the air
Performance Goal:         transportation system by improved passenger and baggage screening processes.
Performance Measure:      Level of the Customer Satisfaction Index (CSI - A) for Aviation Operations
                            FY 2003           FY 2004          FY 2005          FY 2006         FY 2006          FY 2006
Fiscal Year:
                             Actual            Actual           Actual           Target          Actual          Results
Actual:                        N/A               N/A             78%             81%             81%             Met
                          This performance measure was developed in FY 2005; therefore data prior to FY 2005 is not
Description:              available. The CSI - A is a composite index incorporating data on security confidence,
                          passenger surveys, and compliments/complaint data on screener performance.
                          In FY 2006, the score on the Customer Satisfaction Index for Aviation (CSI-A) reached 81
                          percent, a new level for customer satisfaction with screening operations at the Nation’s
                          security checkpoints. This score, when considered with other performance measures, indicates
Explanation of Results:
                          that TSA was able to perform necessary checkpoint screening operations preventing and
                          protecting against adverse actions, while maintaining a high level of customer satisfaction.
                          The FY 2006 target was set at 81% and TSA achieved that target.



DHS Strategic Goal = PREVENT and PROTECT
                          Promote confidence in our nation’s civil aviation system through the effective deployment of
Federal Air Marshals
                          Federal Air Marshals to detect, deter, and defeat hostile acts targeting U.S. air carriers,
Performance Goal:
                          airports, passengers, and crews.
                          Number of successful terrorist and other criminal attacks initiated from commercial passenger
Performance Measure:
                          aircraft cabins with Federal Air Marshal Service (FAMS) coverage.
                             FY 2003           FY 2004         FY 2005         FY 2006           FY 2006         FY 2006
Fiscal Year:
                              Actual            Actual          Actual          Target            Actual          Results
Actual:                          0                 0                0                0                0              Met
                          This measure describes how many criminal attacks were initiated from commercial passenger
                          aircraft cabins while at least one Federal Air Marshal was aboard. By meeting current targets,
Description:              the FAMS program has promoted confidence in the civil aviation system and has helped to
                          deter terrorists and criminals from committing hostile acts on the U.S. aviation system.
                           During FY 2006, there were no successful terrorist/criminal attacks initiated from
                          commercial passenger aircraft cabins while at least one Federal Air Marshal was aboard. The
                          presence of Federal Air Marshals within the aviation domain, specifically on commercial
                          aircraft, has proven to be an effective deterrent that mitigates the threat of criminal attacks
                          originating from passenger aircraft cabins. There is a reasonable expectation that the
Explanation of Results:
                          continued deployment of Federal Air Marshals will successfully defeat future terrorist and
                          other criminal in-air attacks on commercial aircraft. This presence on commercial aircraft has
                          also promoted general confidence in the civil aviation system as evidenced by the reported
                          increases of passengers in scheduled daily U.S. carrier commercial flights which have reached
                          or exceeded pre-9/11 levels.




                                                           5
                      UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                          TRANSPORTATION SECURITY ADMINISTRATION
                                       Management’s Discussion and Analysis
                                                      (Unaudited)
                                                 September 30, 2006



 DHS Strategic Goal = PREVENT and PROTECT

                            Reduce the probability of a successful terrorist or other criminal attack on surface
 Surface Transportation
                            transportation systems through the issuing of standards, compliance inspections, and
 Security Performance Goal:
                            vulnerability assessments.
                            Percentage of nationally critical surface transportation assets or systems that have been
 Performance Measure:
                            assessed and have mitigation strategies developed based on those assessments.
                              FY 2003          FY 2004        FY 2005         FY 2006          FY 2006         FY 2006
 Fiscal Year:
                               Actual           Actual         Actual          Target           Actual         Results
 Actual:                         N/A             N/A             N/A          Baseline           31%             N/A
                            This measure was established and baselined in FY 2006; therefore data prior to FY 2006 is
                            not applicable. This measure refers to the percentage of nationally critical surface
 Description:               transportation assets or systems that have been assessed and have mitigation strategies
                            developed based on those assessments. TSA tracks these assessments through
                            participation in the Federal Risk Assessment Working Group (FRAWG).
                            In previous years the results focused only on the number of assessments performed by
                            TSA; in FY 2006 the results included assessments performed by other Federal agencies.
                            The measure was revised this year to include data that is collected, and assessments made,
                            by multiple Federal agencies to provide a more complete picture of the assets or systems
 Explanation of Results:    assessed. Through participation in the FRAWG and direct communication with our
                            Federal partners, TSA has visibility into the assessments conducted by other Federal
                            agencies. With this enhancement, TSA has improved the management of the surface
                            transportation assessment efforts conducted at the nationally critical surface transportation
                            assets and systems.



PERFORMANCE RESULTS

TSA’s ability to achieve its mission, fulfill its performance goals, devise effective strategies, and allocate
resources appropriately is enhanced by its understanding of historical trends and performance results. The
following are some of the Administration’s accomplishments during FY 2006 as they relate to the
above-mentioned performance goals:

• DHS Goals: Awareness, Prevent and Protect. Closed Circuit Cameras Benefit TSA and the Airport
   Community. Portland, Oregon’s airport is pursuing a plan with TSA regulatory staff to dramatically increase
   security monitoring capabilities of the airport environment. Portland’s plan will allow TSA to share in the
   feed of the airport’s camera system and permit TSA to expand coverage to effectively handle potential
   security situations, including security breaches. Sharing the system will allow TSA to meet its mission
   requirements without having to build a separate system.

   In this example of partnership, better security service and a sound investment result from the well-developed
   working relationship between TSA, local airport security staff members and airport management team
   members. Under this type of plan, TSA envisions other airports installing systems like this with TSA


                                                            6
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                  (Unaudited)
                                              September 30, 2006



   financing. TSA will obtain the access and coverage it needs to do its job, with other TSA functions such as
   screening and compliance directly benefiting from having a real-time picture of overall airport operations.
   With that comes the immediate ability to recall incident data in very short order.

   Public benefits result from overall airport closed circuit television security coverage being increased by this
   partnership with airports. Also, fiscally sound practices are instituted, thereby eliminating potential
   duplication and waste.

• DHS Goals: Prevent and Protect. High Threat Urban Area Corridor Initiative. Beginning in 2004, DHS
   and Department of Transportation partnered with freight railroad stakeholders to conduct security
   assessments of high threat urban area rail corridors. In addition, the Federal Railroad Administration (FRA)
   conducted security plan reviews on all hazardous material rail carriers. As a result of this collaborative
   effort, TSA and FRA developed a list of security action items based on the lessons-learned from the
   assessments and plan reviews. The agencies believed the security action items would have a high security
   impact and could be implemented quickly. Implementation would raise the security baseline for the
   transportation of toxic inhalation hazard (TIH) materials across the industry.

   The draft action items were provided to industry for comment on March 30, 2006. Subsequently, a task force
   was formed under the aegis of the Critical Infrastructure Partnership Advisory Council (CIPAC) to refine the
   action items. Task force participants included Federal members of the Freight Rail Government
   Coordinating Council and private sector representatives of the freight rail industry, including the Association
   of American Railroads, the American Short Line and Regional Railroad Association, and the Class I
   railroads. As of September 2006, this initiative is ongoing.

   On June 23, 2006 by joint letter, TSA and FRA formally issued a list of security action items intended to
   provide security recommendations to the TIH rail carrier industry. The action items are voluntary guidance
   that are expected to be implemented in varying degrees based on multiple factors—including the size of the
   operation and materials transported. The CIPAC task force will continue its work on remaining items from
   the initial list that need additional discussion to determine more specific operating parameters.

• DHS Goals: Prevent and Protect. Mobile Security Checkpoint Pilot Program. TSA, in partnership with
   the Maryland Transit Administration (MTA), conducted a Mobile Security Checkpoint (MSC) pilot program
   to screen Maryland Rail Commuter (MARC) passengers and their bags for explosive material. Passenger
   screening was conducted at the Dorsey Road MARC commuter rail station, weekdays from April 4-28, 2006
   between 5 a.m. and 9 a.m. The MSC pilot was designed to determine the operational feasibility,
   effectiveness, and cost of commercially available screening technology installed in a mobile container. The
   results from the pilot will be used to determine in which environments this containerized checkpoint is
   suitable.

   Every passenger had his or her baggage screened and then entered an Explosives Trace Portal (puffer)
   machine and a metal detector. This pilot program focused on searching for explosives; as a result, unlike
   airport screening, passengers were allowed to retain cell phones, keys, change and other small metal objects
   during the screening process. Special screening accommodations were made for persons with disabilities.


                                                       7
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                  (Unaudited)
                                              September 30, 2006




   TSOs from TSA’s National Screening Force performed screening for the pilot, and a MARC Customer
   Service representative was available during the screening process to address any passengers concerns.

   A Sentinel II Portal and a CEIA-brand Metal Detector were used during the pilot. A HI-SCAN 6046si (an X-
   ray explosives detector) and an Ionscan 400B (a trace explosives detector currently used in airports) were
   used to screen baggage.

• DHS Goals: Prevent and Protect. Cooperative Relationship Leads to Increased Airport Security. TSA’s
   airport security oversight activities are not limited to inspection and monitoring of program rules and
   requirements. A substantial amount of effort is expended in outreach and in fostering improved security
   practices and procedures. At one airport, the shared concerns of TSA inspectors and airport officials for
   enhanced system security led to the implementation of several initiatives that exceed basic regulatory
   requirements. This airport’s cooperative working relationship between airport officials and TSA inspectors
   has brought about key improvements including the installation of new security access controls and an
   enhanced security identification badge system.

   Officials also determined that better security would result from a reduction in the number of access gates and
   in the installation of automated controls at several points. In another upgrade that exceeds regulatory
   minimums, secured areas of the airport are now monitored electronically by newly installed closed circuit
   television cameras that augment airport patrols and TSA inspections. In addition, perimeter security fencing
   has been upgraded and previously unprotected natural areas are secured by barbed wire fencing.

   Moreover, the airport has expanded communications about airport security by publishing security and safety
   bulletins that focus on local issues of concern. These bulletins are published in non-technical terms to
   facilitate greater understanding. These efforts also extend to the travelers in the terminal who hear automated
   announcements informing the public about their security responsibilities concerning control of baggage and
   the reporting of suspicious activity.


FINANCIAL ANALYSIS

PROGRAM BUDGET OVERVIEW
TSA’s budget authority is composed of appropriated and fee resources. The fee resources include two broad
categories – aviation security fees from airline passengers and air carriers that offset TSA’s appropriations, and
direct fee-based programs, such as the credentialing fees. More than half of TSA’s FY 2006 funding was
realized from appropriations. TSA’s budget for 2006 (net of rescissions) is listed below:




                                                        8
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                     Management’s Discussion and Analysis
                                                      (Unaudited)
                                               September 30, 2006



                   Transportation Security Administration Budget
                                  (Amounts in millions)
                                                                      2006
       Appropriation, net of fees                              $       4,182.0
       Offsetting aviation security fee collections                    1,921.3
       Program fees and federal sources                                  280.9
                     Total                                     $       6,384.2


Most of TSA’s funding is devoted to achieving overall security in the nation’s airports. Other funding is devoted
to transportation security for other transportation modes. TSA continues to implement a comprehensive aviation
security program by continuing efforts to improve security at airport screening locations and speed the flow of
passengers at these checkpoints.

FINANCIAL MANAGEMENT
During 2006, TSA continued to build and improve its financial management operations and controls. Significant
progress was made in 2006 in the areas of:

•     Management/Internal Control - TSA continues to improve our Internal Control Program implemented in
      FY 2005. This action supports compliance with the new requirement in the Department of Homeland
      Security Financial Accountability Act for an audit opinion on internal controls. The program assists
      leaders and managers throughout TSA in establishing effective management control systems to provide
      reasonable assurance that program objectives are met and public laws are complied with.
•     Financial Analysis – TSA continues to increase the quality and visibility of financial data to support
      management decision making. Periodic review of internal reports for abnormal and unusual balances and
      improved communication with our accounting services provider has resulted in increased data reliability.
•     FAMS Financial Integration – During FY 2006, TSA began integrating the budget and financial
      management functions of the FAMS with the rest of the agency. Effective October 1, 2006, TSA and
      FAMS accounting is performed using a single, integrated general ledger.

ANALYSIS OF THE BALANCE SHEET
To facilitate a reasonable comparison between FY 2005 and FY 2006, the FAMS FY 2006 financial data was
excluded from the calculations for the following analysis. As of September 30, 2006, total assets decreased by
about $244 million as compared to the total assets as of September 30, 2005. TSA’s assets mostly consist of its
Fund Balance with Treasury (cash), capitalized property and equipment, and accounts receivable from the public.
The decrease in total assets results from multiple factors, the most significant being depreciation of property and
equipment and the return of appropriations offset by fee collections prior to fiscal year-end, as opposed to after
year-end in the past, which reduces the Fund Balance with Treasury. The decrease also impacts the Net Position
accounts.


                                                          9
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                     Management’s Discussion and Analysis
                                                   (Unaudited)
                                               September 30, 2006



As of September 30, 2006, total liabilities decreased by about $280 million as compared to the total liabilities as
of September 30, 2005. TSA’s liabilities mostly consist of accounts payable with the public, accrued payroll,
accrued leave, and actuarial and payable amounts due to the Department of Labor for the Federal Employee
Compensation Act (FECA). Reductions in accounts payable were partially offset by increases in the FECA-
related liabilities. Accounts payable to the public decreased in part due to revised methodology for grants
payable accruals.

ANALYSIS OF SYSTEMS, CONTROLS, AND COMPLIANCE

FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA)

TSA identified the following weaknesses and system non-conformances in its FY 2006 Federal Managers’
Financial Integrity Act Assurance Statement.

During FY 2006, DHS, including TSA was required to assess two areas (Fund Balance with Treasury and
Financial Reporting) in accordance with the OMB approved A-123 implementation plan for DHS.

FMFIA Section 2 Material Weaknesses

    •   Performance Based Management throughout the TSA. Improvements are required throughout TSA
        to improve processes for measuring performance and reporting on the Government Performance and
        Results Act.
            o Repeat finding from FY 2005. TSA continues to make progress in correcting this weakness with
                resolution anticipated by September 30, 2007.

    •   Timely Payment of Vendor Invoices. TSA processes to ensure vendor invoices are paid timely, in
        accordance with the Prompt Payment Act, require improvement. Inadequate system and business
        process controls resulted in TSA paying approximately $1.5 million in late payment interest penalties
        during FY 2005.
            o Repeat finding from FY 2005. Internal controls initiated during FY 2006 have reduced interest
                penalties by over 75% from FY 2005 levels. Continued improvement will enable us to close this
                weakness in FY 2007.

    •   Prior Year Financial Data Integrity. Internal control processes to ensure TSA financial system data is
        reviewed, analyzed, and reconciled requires improvement.

FMFIA Section 4 Systems Non-Conformances

    •   Automated controls to verify funds availability are required. Current Financial System does not
        have the capability to electronically verify funds availability for all program managers and field users.




                                                        10
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                    Management’s Discussion and Analysis
                                                  (Unaudited)
                                              September 30, 2006



            o   Repeat finding from FY 2005. This capability has been developed and is currently undergoing
                final testing and pilot implementation in the 1st quarter of FY 2007. Closeout of this weakness is
                anticipated in FY 2007.

    •   United States Coast Guard (USCG) Finance Center (FINCEN) System weaknesses identified
        during prior audit impact TSA. TSA receives Core Accounting and Financial System support from
        the USCG FINCEN. Open audit issues identified for USCG FINCEN directly impact TSA conformance
        with Government-wide financial system requirements. USCG reported Statement of No Assurance in
        FY 2006.
            o Repeat finding from FY 2005. This weakness is impacted by the multi-year USCG Financial
               Management Transformation Project initiated this year. TSA will monitor USCG remediation
               activities and implement compensating controls where possible.

    •   Core Accounting System compliance with the US Standard General ledger. Certain accounting
        processes in the USCG-owned Core Accounting System, used by TSA, do not comply with the U.S.
        Standard General Ledger at the transaction level. Areas of specific non-compliance include recording
        the purchase of property, plant, and equipment, and recording prior year adjustments.
            o Repeat finding from FY 2005. Funding constraints have delayed corrective action on this
                weakness. Development of the functional requirements to remediate this issue to be completed
                3rd quarter FY 2007 with issue resolved by March 31, 2008.

The aforementioned financial systems non-conformances also prevent TSA from achieving full compliance with
the Federal Financial Management Improvement Act of 1996 at this time.

IMPROPER PAYMENTS INFORMATION ACT REPORTING

During fiscal year 2006, TSA sampled payments made during fiscal year 2005 to determine the percentage of
improper payments. For testing purposes, payments were categorized into the following programs: contractual
non-grants, grants, travel, purchase card, and overnight delivery payments. In the area of contractual non-grants
payments, 1.38% of the sample was determined to be improper. The error rate for grant payments was 1.21%.
Automated payment processes and daily reconciliation for travel and purchase card payments and automated
payment processes and weekly reconciliation for overnight delivery payments minimize risks of improper
payments in these areas. Per Section 4.02 of DHS FY 2006 Performance and Accountability Report Guidance
(Improper Payments Information Act Compliance Guidance), TSA is not required to test these types of
payments.

Payments made during fiscal year 2006 will be tested during fiscal year 2007, utilizing the same statistical
sampling processes conducted during fiscal year 2006. This process will be repeated during fiscal years 2008
and 2009. Results should continue to improve during this time period due to maturation of payment center
processes and further refinement of internal controls.

LIMITATIONS OF THE BALANCE SHEET
The balance sheet should be read with the realization that it is for a component of the United States Government,
a sovereign entity. It has been prepared to report the financial position for TSA, pursuant to the requirements of


                                                       11
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                   Management’s Discussion and Analysis
                                                 (Unaudited)
                                             September 30, 2006



31. U.S.C. 3515(b). While the balance sheet has been prepared from the books and records of TSA in accordance
with U.S. Generally Accepted Accounting Principles (GAAP) for Federal entities and in the format prescribed by
OMB, the balance sheet is in addition to the financial reports used to monitor and control budgetary resources
which are prepared from the same books and records.




                                                     12
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                        Consolidated Balance Sheet
                                        As of September 30, 2006
                                           (Dollars in thousands)

                                                                            2006
ASSETS                                                                   (unaudited)
  Intragovernmental
     Fund Balance with Treasury (Note 2)                             $     2,633,251
     Accounts Receivable, Net (Note 4)                                         4,470
     Advances and Prepayments                                                  3,173
  Total Intragovernmental                                                  2,640,894
  Accounts Receivable, Net (Note 4)                                          371,749
  General Property and Equipment, Net (Note 3)                             1,106,814
  Advances and Prepayments                                                     1,128
Total Assets                                                         $     4,120,585

LIABILITIES
  Intragovernmental:
     Accounts Payable                                                $       42,581
     Other (Notes 5 and 6)                                                  227,153
  Total Intragovernmental                                                   269,734

  Accounts Payable                                                          564,644
  Advances from Others                                                          750
  Actuarial FECA Liabilities (Note 5)                                       598,078
  Accrued Payroll and Leave                                                 117,937
  Accrued Unfunded Leave (Note 5)                                           129,586
  Other (Notes 5 and 6)                                                       4,925
Total Liabilities                                                          1,685,654

Commitments and Contingencies (Notes 7 and 9)                                    —
NET POSITION
  Unexpended Appropriations (Note 12)                                      1,647,395
  Cumulative Results of Operations-Earmarked Funds (Note 8)                  267,810
  Cumulative Results of Operations-Other Funds (Note 12)                     519,726
Total Net Position                                                         2,434,931
Total Liabilities and Net Position                                   $     4,120,585


See accompanying notes to Consolidated Balance Sheet.




                                                    13
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Notes to the Consolidated Balance Sheet
                                                  (Unaudited)
                                              September 30, 2006



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            TSA was created by the Aviation and Transportation Security Act, Public Law (PL) 107-71, (the
            Act), enacted on November 19, 2001, as an agency within the Department of Transportation (DOT).
            The Act transferred the Civil Aviation Security functions and responsibilities of the Federal Aviation
            Administration (FAA) to TSA not later than 3 months after the date of enactment. TSA assumed
            responsibility for the Civil Aviation Security functions from the FAA on February 13, 2002. TSA’s
            mission is to develop transportation security policies and programs that contribute to providing
            secure transportation for the American public. Effective March 1, 2003, TSA transferred to the
            newly created Department of Homeland Security (DHS), as mandated by the Homeland Security Act
            of 2002, PL 107-296. On October 1, 2005, the Federal Air Marshal Service (FAMS) transferred to
            TSA from the Immigration and Customs Enforcement bureau of DHS. As a program within TSA,
            the FAMS financial data is included in the consolidated balance sheet.

      (b)   Basis of Presentation
            The consolidated balance sheet has been prepared from the accounting records of TSA in accordance
            with U.S. generally accepted accounting principles and the DHS accounting policies, which are
            summarized in this note.

            Intragovernmental activities result from activity with other Federal agencies. All other accounts
            result from activity with parties outside the Federal government.

            The TSA consolidated balance sheet is reported using the accrual basis of accounting. In accordance
            with OMB Circular No. A-136, intra-entity transactions and balances have been eliminated from the
            consolidated balance sheet.

      (c)   Budgets and Budgetary Accounting
            TSA incurs obligations for specified purposes. TSA recognizes budgetary resources as assets when
            cash (funds held by the Department of the Treasury (Treasury)) is made available through Treasury’s
            General Fund warrants or as authorized by Congress through Continuing Resolution.

      (d)   Basis of Accounting
            Transactions are recorded on both the accrual basis of accounting and on a budgetary basis. Under
            the accrual method, revenues are recognized when earned, and expenses are recognized when
            incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates compliance
            with legal constraints and controls over the use of Federal funds.

      (e)   Revenues and Other Financing Sources
            Congress enacted one-year, multi-year, and no-year appropriations to be used, within statutory
            limits, for operating and capital expenditures. Additional amounts are obtained from security fees



                                                       14
               UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                   TRANSPORTATION SECURITY ADMINISTRATION
                              Notes to the Consolidated Balance Sheet
                                             (Unaudited)
                                         September 30, 2006



      assessed on the public and air carriers pursuant to PL 107-71 and from other federal agencies for
      services performed by TSA and on their behalf.

(f)   Fund Balance with Treasury
      TSA does not maintain cash in commercial bank accounts or foreign currency balances. Treasury
      processes cash receipts and disbursements. Fund Balance with Treasury represents amounts
      remaining as of September 30, 2006 and is available to pay current liabilities and finance authorized
      purchases.

(g)   Accounts Receivable
      Accounts receivable with the public consists of amounts owed to TSA that arise from security fees
      assessed on the public and air carriers pursuant to PL 107-71. An allowance for doubtful accounts is
      based on specific identification and analysis of outstanding balances for reporting purposes. The
      allowance is adjusted accordingly at the time of collection or write off during the fiscal year.
      Accounts receivable is reported net of allowance amounts.

      Intragovernmental accounts receivable represent amounts due from other Federal agencies for
      reimbursable work such as investigative services. All intragovernmental receivables are considered
      fully collectible.

(h)   General Property and Equipment, Net
      Effective March 1, 2003, the capitalization threshold for property and equipment, with an estimated
      useful life of two years or more was raised to $50,000. Prior to that date, the capitalization threshold
      was $25,000 and property and equipment was depreciated over a seven year useful life. DHS
      instructed TSA that capitalized property and equipment prior to March 1, 2003, will continue to be
      recorded using the $25,000 threshold and depreciated over a 7 year period. Property and equipment
      with an acquisition cost of less than $50,000 is expensed when purchased.

      Personal property is depreciated using the straight-line method over a useful life, determined for each
      general asset category, which is generally five years to seven years. Depreciation and amortization
      commences the first month after the asset is placed in service.

      Progress payments made pursuant to firm contracts for the purchase of a capital asset are recorded in
      a capital asset account. However, the asset is not subject to depreciation until such time as TSA takes
      delivery of the asset and the asset is placed in service.

(i)   Advances and Prepayments
      Payments made in advance of the receipt of goods and services are recorded as advances or
      prepayments at the time of prepayment and recognized as expenses or capitalized when the related
      goods and services are received.




                                                  15
               UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                   TRANSPORTATION SECURITY ADMINISTRATION
                               Notes to the Consolidated Balance Sheet
                                             (Unaudited)
                                         September 30, 2006



(j)   Liabilities
      Liabilities represent amounts to be paid by TSA as a result of a transaction or event that has already
      occurred. However, no liability can be liquidated by TSA absent an appropriation or offsetting
      collection. Liabilities for which an appropriation has not yet been enacted are, therefore, classified as
      unfunded liabilities.

      TSA awards grants and cooperative agreements to State and local governments, universities,
      nonprofit organizations and private sector companies to enhance and ensure the security of passenger
      and cargo transportation by air, land, or sea. The related grant liability accrual is estimated using a
      change of expended percentage applied to the undelivered order amount.

(k)   Commitments and Contingencies
      TSA recognizes losses for contingent liabilities when such losses are probable and estimable.

(l)   Annual, Sick, and Other Leave
      Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. At each
      bi-weekly pay period, the balance in the accrued annual leave account reflects the latest pay rates
      and unused hours of leave. To the extent that appropriations are not available to fund annual leave
      earned but not taken, funding will be obtained from future financing sources. Sick leave and other
      types of nonvested leave are expensed as used.
(m)   Benefit Plans
      Employees who participate in the Civil Service Retirement System (CSRS) are beneficiaries of
      TSA’s matching contribution equal to 8.51% of pay to their annuity account in the Civil Service
      Retirement and Disability Fund.

      On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect pursuant to
      PL 99-335. Most Federal employees hired after December 31, 1983 are automatically covered by
      FERS and Social Security. Employees hired prior to January 1, 1984 could elect either to join FERS
      and Social Security or to remain in CSRS. A primary feature of FERS is that it offers a savings plan
      to which TSA automatically contributes 1% of pay and matches any employee contribution up to an
      additional 4%. For FERS participants, TSA also contributes the employer’s matching share for
      Social Security.

      TSA does not report CSRS or FERS assets, accumulated plan benefits, or unfunded liabilities, if any,
      applicable to its employees. Reporting such amounts is the responsibility of Office of Personnel
      Management (OPM).

      The majority of TSA employees are authorized to participate in the Federal Employees Health
      Benefits (FEHB) program and the Federal Employees’ Group Life Insurance (FEGLI) program,
      which are administered by OPM.




                                                  16
              UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                  TRANSPORTATION SECURITY ADMINISTRATION
                              Notes to the Consolidated Balance Sheet
                                            (Unaudited)
                                        September 30, 2006



(n)   Imputed Financing Sources and Costs
      TSA recognizes as imputed financing sources and costs the amount of accrued pension and post
      retirement benefit expense for current employees, insurance payments, and judgment fund payments.
      The assets and liabilities associated with such payments are the responsibility of OPM, Department
      of Labor (DOL), and Department of Justice (DOJ).

(o)   Net Position
      Net position is the difference between assets and liabilities and comprises unexpended appropriations
      and cumulative results of operations.

      Unexpended appropriations represent the amount of unobligated and unexpended budget authority.
      Unexpended appropriations are reduced for appropriations used and adjusted for other changes in
      budgetary resources, such as transfers and rescissions.

      Cumulative results of operations represent the net results of operations since inception plus the
      cumulative amount of prior period adjustments. This includes the cumulative amount of donations
      and transfers of assets in and out without reimbursement.

(p)   Use of Estimates
      TSA has made certain estimates and assumptions relating to the reporting of assets and liabilities and
      the note disclosures of the consolidated balance sheet. Actual results could differ from these
      estimated amounts. Significant estimates include the allowance for uncollectible accounts receivable
      and accounts payable.

(q)   Tax Exempt Status
      As an agency of the Federal Government, TSA is exempt from all income taxes imposed by any
      governing body whether it is a Federal, state, commonwealth, local, or foreign government.

(r)   Federal Employee Compensation Benefits
      The Federal Employees Compensation Act (FECA) authorizes income and medical cost protection to
      covered federal civilian employees who are injured on the job or who have incurred a work-related
      occupational disease, and to beneficiaries of deceased employees whose death is attributable to a job-
      related injury or occupational disease. FECA benefit claims for TSA employees are initially paid by
      DOL and subsequently reimbursed by TSA.

      TSA’s FECA liability consists of two components: (1) accrued FECA liabilities and (2) actuarial
      FECA liabilities. Accrued FECA liabilities are claims paid by the DOL but not yet billed to or paid
      by TSA. Estimated future costs are determined by applying actuarial procedures to anticipated
      future costs. The DOL is responsible for calculating the actuarial FECA liability of future
      compensation benefits for all federal agencies. These benefits include the liability for death,
      disability, medical, and miscellaneous costs for approved compensation cases. This liability is
      determined using a paid-losses extrapolation method calculated over a 37-year period. This method


                                                 17
              UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                  TRANSPORTATION SECURITY ADMINISTRATION
                              Notes to the Consolidated Balance Sheet
                                             (Unaudited)
                                         September 30, 2006



      utilizes historical benefit payment patterns that relate to a specific period. Projected annual benefit
      payments are discounted to present value. The resulting liability is then distributed by DOL to each
      benefiting agency. The DHS calculates and distributes each bureau’s respective portion of the total
      DHS actuarial liability.

      The actuarial FECA liability is recorded for financial reporting purposes only and is an extended
      future estimate of costs which will not be obligated against budgetary resources until the year in
      which the cost is actually billed to the TSA.

(s)   Non-Entity Assets

      Non-entity assets consist of the funds assessed and collected from interest, fines, and penalties. TSA
      has no authority to use these funds. The funds are deposited and maintained in the General Fund
      Receipt Accounts. Sections 31-Code of Federal Regulations (CFR)-900 and 49-CFR-89 provide
      TSA the authority to impose interest, fines, and penalties. The custodial amounts collected are
      incidental to TSA’s operations.

(t)   Earmarked Funds

      In 2006, TSA has reported the net position for earmarked funds separately from other funds on the
      consolidated balance sheet and disclosed certain balances of these funds in the notes. This new
      method was adopted in accordance with the provisions of the Federal Accounting Standards
      Advisory Board’s Statement of Federal Financial Accounting Standards (SFFAS) No. 27, Identifying
      and Reporting Earmarked Funds, which became effective October 1, 2005. This new standard
      amended SFFAS No.7, Revenue and Other Financing Sources, by:

      •   elaborating the special accountability needs associated with dedicated collections;
      •   separating dedicated collections into two categories – earmarked funds and fiduciary
          activity; and
      •   defining and providing accounting and reporting guidance for earmarked funds.

      See Note 8 for specific required disclosures related to TSA’s earmarked funds.

(u)   Other Assets and Liabilities

      The consolidated balance sheet has been prepared using the guidance provided in the Office of
      Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements”. In OMB
      Circular A-136, Other Assets includes Advances and Prepayments. Other Liabilities consists of
      Accrued FECA Liabilities, Custodial Liabilities, Accrued Payroll and Benefits, Contingent
      Liabilities, Accrued Annual and Compensatory Leave Liabilities, Deferred Revenue, and Seized
      Cash and Investments. To enhance reporting consistency and properly reflect the materiality of
      certain items, TSA disaggregated Other Assets and Other Liabilities on the balance sheet. Note 6
      shows the detail of items that have been reported as Other Liabilities on the balance sheet, and Note
      10 provides a Balance Sheet Crosswalk to OMB Circular A-136 classifications.


                                                 18
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Notes to the Consolidated Balance Sheet
                                                  (Unaudited)
                                             September 30, 2006



(2)   Fund Balance with Treasury
      Fund Balance with Treasury as of September 30, 2006 consists of the following (dollars in thousands):
                                                                        2006 (unaudited)
      Fund Balances:
        Appropriated Funds                                          $        2,344,322
        Other Fund Types                                                       288,929
            Total                                                   $        2,633,251
      Status of Fund Balance with Treasury:
         Unobligated Balance Available                              $          303,535
         Unobligated Balance Not Available                                      73,975
         Obligated Balance Not Yet Disbursed                                 2,274,140
         Non-Budgetary                                                         (18,399)
            Total                                                   $        2,633,251


      The Fund Balance with Treasury is comprised of the aggregate amounts of the entity’s accounts with
      Treasury for which TSA is authorized to make expenditures and pay liabilities. Other fund types include
      Suspense Accounts, which temporarily hold collections pending clearance to the applicable account, and
      Deposit Funds, which are established to record amounts held until ownership is determined. It also
      includes $4.892 million in General Fund Receipt accounts which are non-entity assets.

(3)   General Property and Equipment, Net
      General Property and equipment balances as of September 30, 2006 consists of the following (dollars in
      thousands):

                                                     Useful         Acquisition       Accumulated          Net book
                    Major classes                     lives           value           depreciation          value
      Equipment                                       5-7       $       2,119,076 $        (1,018,694) $      1,100,382
      Construction in progress                        N/A                   1,393                   0             1,393
      Leasehold improvements                          9                     5,039                   0             5,039
                                          Total                 $       2,125,508 $        (1,018,694) $      1,106,814




                                                      19
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                    Notes to the Consolidated Balance Sheet
                                                   (Unaudited)
                                               September 30, 2006



(4)   Accounts Receivable, Net
      Accounts receivable balances as of September 30, 2006 consists of the following (dollars in thousands):
                                                                         2006 (unaudited)
      Intragovernmental:
         Accounts receivable                                         $            4,470
            Total intragovernmental accounts receivable                           4,470
      With the public:
        Accounts receivable                                                     535,390
        Allowance for uncollectible accounts                                   (170,296)
        Interest and penalties                                                    6,655
            Total accounts receivable with the public                           371,749
            Total accounts receivable                                $          376,219


      The intragovernmental accounts receivable balance consists of reimbursable agreement activity with other
      DHS bureaus, Immigration and Customs Enforcement (ICE) and Science and Technology (S&T), owed to
      TSA.

      Interest and penalties of approximately $6.655 million represents non-entity assets.




                                                        20
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                   Notes to the Consolidated Balance Sheet
                                                     (Unaudited)
                                              September 30, 2006



(5)   Liabilities not Covered by Budgetary Resources
      TSA’s liabilities not covered by budgetary resources as of September 30, 2006 consist of the following
      (dollars in thousands):
                                                                       2006 (unaudited)
      Intragovernmental:
         Accrued FECA
            liabilities                                            $         140,977
         Other employment related liability                                   67,015
               Total intragovernmental liabilities                           207,992

      Accrued unfunded leave                                                 129,586
      Actuarial FECA liabilities                                             598,078
      Other employment related liability                                         201
              Total public liabilities                                       727,865
              Total liabilities not covered by
                budgetary resources                                          935,857
              Total liabilities covered by budgetary resources               749,797
              Total liabilities                                    $       1,685,654




                                                         21
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                    Notes to the Consolidated Balance Sheet
                                                   (Unaudited)
                                               September 30, 2006



(6)   Other Liabilities

      TSA’s other liabilities as of September 30, 2006 consist of the following (dollars in thousands):

                                                             Noncurrent              Current
                                                              liabilities           liabilities              Total
                                                             (unaudited)           (unaudited)            (unaudited)
        Intragovernmental:
           Advances from others                         $                 0 $                  88 $                88
           Accrued FECA liabilities                                  83,471                57,506             140,977
           Employer contributions and payroll
              taxes payable                                                 0              19,073              19,073
           Other employment related liability                               0              67,015              67,015
              Total other intragovernmental
                 liabilities                                         83,471               143,682             227,153
        With the public:
          Custodial liability                                             0                11,922              11,922
          Liability for deposit and clearing funds                        0               (10,506)            (10,506)
          Other employment related liability                              0                 3,509               3,509
             Total other liabilities with public                          0                 4,925               4,925
             Total other liabilities                    $            83,471 $             148,607 $           232,078


        Other Employment Related Liabilities consist of Unfunded Employment Related Liabilities such as
        benefits.




                                                        22
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                    Notes to the Consolidated Balance Sheet
                                                   (Unaudited)
                                              September 30, 2006



(7)   Commitments and Contingencies

      There are several claims, which may be asserted against TSA regarding contractual agreements. There is
      currently one case where an unfavorable outcome is reasonably possible for which an amount cannot be
      estimated. For all other cases where an unfavorable outcome is reasonably possible the potential loss is
      between $1.1 million and $16 million. However, the government anticipates a favorable outcome.

      As of September 30, 2006, TSA has the following types of agreements that have potential contingent
      liabilities:

      1)    Letters of Intent for Modifications to Airport Facilities – TSA entered into Letters of Intent with
            eight major airports in which TSA may reimburse the airports for 75% (estimated total of
            $957 million) of the cost to modify the facilities for security purposes. These Letters of Intent would
            not obligate TSA until funds have been appropriated and obligated. In addition, each airport shall
            have title to any improvements to its facilities. During fiscal year 2006, $240 million was
            appropriated and is available for payment to the airports upon submission to TSA of an invoice for
            the modification costs incurred. As of September 30, 2006, TSA received invoices or documentation
            for costs incurred and paid in a total of $335.4 million related to these agreements.

           The amounts requested under these letters of intent may differ significantly from the original
           estimates and, therefore, TSA could ultimately pay substantially more than originally estimated.

      2)    Contract options with vendors – TSA entered into contracts with options in FY 2004 that provide
            TSA with the unilateral right to purchase additional services and or equipment or to extend the
            contract terms. Exercising these rights would require the obligation of funds in future years.




                                                       23
                   UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                       TRANSPORTATION SECURITY ADMINISTRATION
                                  Notes to the Consolidated Balance Sheet
                                                 (Unaudited)
                                             September 30, 2006



(8)   Earmarked Funds

      TSA has the following two special fund receipt accounts that are earmarked funds.

      Aviation Security Capital Fund

      Fund Description. In FY 2005, P.L. 108-176 established the Aviation Security Capital Fund to finance
      projects to integrate explosive detection equipment into airport baggage handling systems. In accordance
      with P.L. 108-76, the first $250 million in aviation security fees collected by TSA is transferred into this
      fund. These collections, and the associated expenditures made against them, are tracked through a
      Special Fund account.

      Sources of Revenue. Amounts in this fund are collected as fees from the traveling public and the airline
      industry. They represent an inflow of resources to the government. In FY 2006, a total of $250 million
      was collected in this fund.

      Changes. There has been no change in legislation related to this fund during or subsequent to the
      reporting period and before the issuance of the financial statements.

      Unclaimed Money Fund

      Fund Description. Unclaimed money is money that passengers inadvertently leave behind at airport
      screening checkpoints during screening. In most cases, the monies are coins that passengers empty from
      their pockets so the metal detectors do not sound. Prior to FY 2005, receipts of unclaimed money were
      deposited into Treasury’s miscellaneous receipt account. In the FY 2005 DHS Appropriation Act (P.L.
      108-334), TSA received statutory budget authority to expend the funding for purposes of providing Civil
      Aviation Security. Accordingly, beginning in FY 2005, the receipts of unclaimed money were deposited
      into a Special Fund account so that the resources could be easily tracked and subsequently expended.

      Sources of Revenue. Amounts in this fund are collected as involuntary donations from the traveling
      public. They represent an inflow of resources to the government. In FY 2006, a total of $359 thousand
      was collected in this fund.

      Changes. There has been no change in legislation related to this fund during or subsequent to the
      reporting period and before the issuance of the financial statements.




                                                      24
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                   Notes to the Consolidated Balance Sheet
                                                (Unaudited)
                                             September 30, 2006



       Condensed Information for Earmarked Funds (Unaudited)

       TSA’s Earmarked Funds as of September 30, 2006 consist of the following (dollars in thousands):

                                       Aviation Security      Unclaimed Money
Balance Sheet                          Capital Fund           Fund            Combined

Assets
Fund Balance with Treasury               $       306,657       $             670      $   307,327
Total Assets                                     306,657                     670          307,327
Liabilities and Net Position

Liabilities
Accounts Payable                         $        39,517                       -      $     39,517
Total Liabilities                                 39,517                       -            39,517

Net Position
Cumulative Results of Operations                 267,140                     670          267,810
Total Liabilities and Net
Position                                 $       306,657       $             670      $   307,327




                                                     25
                  UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                      TRANSPORTATION SECURITY ADMINISTRATION
                                  Notes to the Consolidated Balance Sheet
                                                (Unaudited)
                                            September 30, 2006



(9)   Leases
      TSA has a total of 607 occupancy agreements with the General Services Administration for space in
      airports or surrounding areas. In addition, TSA has seven lease agreements with the public; they are TSA
      Headquarters, Cabot Tech, Clark County Department of Aviation, Gerald R. Ford International Airport,
      Airport Corporate Center, Airport Mini-Storage LLC, and Massport Administrative Office as well as 21
      FAMS lease agreements with the public consisting of the FAMS Headquarters lease in Reston, VA and
      20 field offices. Lease expenses were $110 million in FY 2006.
      Operating Leases:


      Future payments consist of the following (dollars in thousands):
      Fiscal year:
         2007                                        $        113,607
         2008                                                  80,160
         2009                                                  63,167
         2010                                                  53,498
         2011                                                  48,051
         After 2011                                           103,127
                      Total                          $        461,610




                                                     26
                   UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                       TRANSPORTATION SECURITY ADMINISTRATION
                                  Notes to the Consolidated Balance Sheet
                                                 (Unaudited)
                                             September 30, 2006



(10)   Balance Sheet Crosswalk to OMB Circular A-136 Classifications
       TSA's balance sheet is presented in a format which varies from the format prescribed by OMB Circular
       A-136. The following table shows reclassification adjustments needed to present the Balance Sheet in
       the OMB Circular A-136 format (dollars in thousands):
                                                                            As        Reclassification
       As of September 30, 2006                                       Presented        Debit        Credit   OMB A-136
       ASSETS
          Intragovernmental
             Fund Balance with Treasury                             $2,633,251    $      -     $     -       $2,633,251
             Accounts Receivable, Net                                   4,470            -           -            4,470
             Advances and Prepayments                                   3,173            -         3,173            -
             Other                                                         -           3,173         -            3,173
          Total Intragovernmental                                   2,640,894          3,173       3,173     2,640,894
          Accounts Receivable, Net                                    371,749            -           -          371,749
          General Property and Equipment, Net                       1,106,814            -           -        1,106,814
          Advances and Prepayments                                      1,128            -         1,128            -
          Other                                                            -           1,128         -            1,128
       Total Assets                                                 4,120,585         4,301        4,301     4,120,585
       LIABILITIES
          Intragovernmental:
             Accounts Payable                                          42,581          -            -            42,581
             Other                                                    227,153          -            -           227,153
          Total Intragovernmental                                     269,734          -            -          269,734
          Accounts Payable                                            564,644          -            -           564,644
          Advances from Others                                            750          750          -               -
          Actuarial FECA Liabilities                                  598,078      598,078          -               -
          Federal Employee and Veteran Benefits                            -           -        598,078         598,078
          Accrued Payroll and Leave                                   117,937      117,937          -               -
          Accrued Unfunded Leave                                      129,586      129,586          -               -
          Other                                                         4,925          -        248,273         253,198
       Total Liabilities                                            1,685,654     846,351      846,351       1,685,654
       Commitments and Contingencies                                       -           -            -               -
       NET POSITION
          Unexpended Appropriations                                 1,647,395          -            -         1,647,395
          Cumulative Results of Operations-Earmarked Funds            267,810          -            -           267,810
          Cumulative Results of Operations-Other Funds                519,726          -            -           519,726
       Total Net Position                                           2,434,931          -            -        2,434,931
       Total Liabilities and Net Position                           4,120,585     846,351      846,351       4,120,585




                                                     27
                  UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                      TRANSPORTATION SECURITY ADMINISTRATION
                                 Notes to the Consolidated Balance Sheet
                                              (Unaudited)
                                          September 30, 2006



(11)   Anti-Deficiency Act Violation

       In August 2006, TSA identified a potential violation of the Anti-Deficiency Act (ADA) (31
       USC 1341(a)) in its FY 2002-2003 Expenses Account, Treasury Appropriation Fund Symbol
       70X0508. TSA immediately reported the matter to the DHS Chief Financial Officer and was
       directed to complete a preliminary review within 90 days. As a result of the review, TSA found
       that legal obligations in the 70X0508 account had been underreported, resulting in actual
       obligations exceeding available budget authority in this account in an amount of approximately
       $195 million as of September 30, 2006. This situation was caused by an erroneous journal entry
       recorded during the migration of TSA’s financial data from the Department of Transportation to
       DHS in FY 2003. This erroneous journal entry resulted in the underreporting of obligations,
       allowing the ADA violation to occur in FY 2004. DHS provided formal notification of the
       violation to the President of the United States, Congressional Leadership, and the Comptroller
       General in December 2006.

       In order to accurately reflect the financial implications of the legal obligations that had been
       underreported in prior years, TSA recorded a year-end budgetary entry to increase obligations
       by $248.1 million and decrease budget authority by an identical amount in the Expenses
       Account (70X0508), resulting in a final FY 2006 year-end account balance of $(195) million.
       This entry had no effect on TSA’s Consolidated Balance Sheet as of September 30, 2006.

       In order to ensure that adequate resources are available to meet anticipated expenditures from
       existing obligations for contracts and grants, TSA has requested legislative authority to transfer
       unobligated balances from TSA’s Aviation Security and Transportation Security Support
       Accounts to its Expenses Account. This request is fully offset through transfers of unobligated
       balances currently available to TSA and will not increase overall federal spending or the federal
       deficit. In February 2007, this authority was enacted into law. TSA will utilize this authority by
       September 30, 2007 to ensure the account has sufficient resources to meet anticipated
       expenditures.

       Because the erroneous journal entry that led to this violation was made in FY 2003 and was not
       discovered and corrected until FY 2006, TSA’s FY 2003 and FY 2004 Consolidated Financial
       Statements should not be relied upon. In addition, TSA will not issue restated consolidated
       financial statements for FY 2003 and FY 2004, and TSA did not issue stand-alone financial
       statements in FY 2005.




                                                   28
                    UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                        TRANSPORTATION SECURITY ADMINISTRATION
                                 Notes to the Consolidated Balance Sheet
                                                  (Unaudited)
                                               September 30, 2006



(12)   Prior Period Adjustment due to an Error

       In April 2007, TSA completed a review and reconciliation of its Aviation Security
       appropriations. As a result of this process, TSA identified an error in recording Aviation
       Security fees from FY 2002 through 2005 and an error in recording a transfer at the inception of
       DHS that caused the Unexpended Appropriations (Cumulative) account to be understated by
       $588 million and the Cumulative Results of Operations account to be overstated by $588
       million. In addition, smaller adjustments were made to correct invalid data in Accounts
       Receivable and Accounts Payable. These additional adjustments decreased the Cumulative
       Results of Operations by $1.3 million.

       The fee related error was the result of TSA’s understanding that the Aviation Security fee
       collections were to be returned to the U.S. Treasury and TSA was to retain the entire amount of
       its Aviation Security appropriation, rather than reducing it by the amount of Aviation Security
       fees collected. This understanding resulted in understated balances in the Unexpended
       Appropriations (Cumulative) account and overstated balances in the Cumulative Results of
       Operations account. As a result of the misstated balances, TSA sought guidance in 2006 from
       OMB, the U.S. Treasury and the DHS General Counsel to re-interpret legislative language and
       derive the proper accounting treatment for recording its Aviation Security fees. In March 2007,
       OMB issued a memorandum which confirmed and clarified earlier guidance that TSA was to
       return to the U.S. Treasury unexpended appropriations equal to the amount of Aviation Security
       fees collected. This process is treated as offsetting collections.

       Implementing the new guidance and incorporating the adjustments discussed above, returns the
       Net Position accounts to their correct balances and rectifies the cumulative effects of the
       erroneous accounting treatment. The effects of these changes to the Net Position accounts are
       shown below:

                              Changes in the Net Position at September 30, 2006
                                           (Amounts in Thousands)

                           Unexpended             Cumulative Results of Operations
                          Appropriations            Others            Earmarked            Total
Pre Adjusted
Balance:              $     1,059,329      $      1,106,519     $      267,810       $   2,433,658

Adjustments:                 588,066               (586,793)               -              1,273

Adjusted Balance:     $     1,647,395      $       519,726      $      267,810       $   2,434,931




                                                      29
                       UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                           TRANSPORTATION SECURITY ADMINISTRATION
                               Required Supplementary Stewardship Information
                                                  (Unaudited)
                                              September 30, 2006




                                              2003              2004               2005               2006
                                           (unaudited)       (unaudited)        (unaudited)        (unaudited)
Nonfederal property:
  Airport improvement program          $       241,732 $           259,437 $         211,447 $        (107,132)
  Airport renovation program                    29,298                   0            95,910           (13,998)
  Port security program                              0             217,745            77,906             5,904
  Intercity bus program                              0              18,340             8,324            (3,609)
               Total                   $       271,030 $           495,523 $         393,587 $        (118,835)
Human capital:
  Highway watch cooperative
    agreement                          $              0 $           7,532 $           21,020 $          12,211
               Total                   $              0 $           7,532 $           21,020 $          12,211
Research and development:
  Applied research projects            $              0 $          30,138 $           22,979 $          18,452
  Operation safe commerce                             0            50,236              8,276             3,484
               Total                   $              0 $          80,374 $           31,255 $          21,936



Stewardship Investments
DHS TSA did not exist prior to FY 2002; stewardship investment data is limited to its years of existence.
Stewardship investments are the costs incurred by the Federal Government for the benefit of the United States.
These investments represent federally financed (but not federally owned) purchases, construction, or major
renovations of physical property owned by state and local governments, including major additions, alterations,
replacements, and the purchase of major equipment; and the purchase or improvement of other physical assets.
Though the cost is treated as expenses to determine TSA’s net cost of operations, these items merit special
treatment so that users of Federal financial reports know the extent of investments that are made for the
long-term benefit of the United States.

During FY 2004, the grant award functions of the TSA Maritime and Land Security programs were transferred to
another DHS bureau. The transfer was accomplished in two phases. Program development and program
management functions associated with the programs transitioning from TSA were integrated with the other
bureau’s existing program development and program management operations. The staffers associated with those
functions were detailed to the other bureau, with permanent transfer at the end of FY 2004. Financial
management functions for all grants issued prior to FY 2005 remain with TSA.

In FY 2006, it was determined that the accrual methodology related to stewardship investments used in FY 2005
resulted in an over-accrual. Therefore, TSA changed its method for calculating an accrual related to stewardship
investments in FY 2006. This new methodology resulted in a much smaller calculated accrual. Since the

                                                      30
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                Required Supplementary Stewardship Information
                                                   (Unaudited)
                                               September 30, 2006



FY 2006 actual expenses and calculated accrual were smaller than the reversal of the over-accrual in FY 2005,
negative numbers are presented for certain nonfederal property investments.

Investments in Nonfederal Property
Airport Improvement Program – TSA purchases and installs in-line explosive detection systems (EDS)
equipment through a variety of funding mechanisms, including Congressionally authorized Letters of Intent
(LOIs). LOIs provide partial reimbursement to airports for facility modifications required to install in-line EDS
solutions. TSA has issued eight LOIs for eight agreements to provide for the facility modifications necessary to
accommodate in-line EDS screening solutions for these agreements.

In-line systems also allow TSA to achieve maximum baggage throughput capacity. For example, a stand-alone
EDS can screen 180 bags per hour, while an in-line unit can screen 450 bags per hour. An added benefit is that
installation of an in-line EDS system removes checked baggage screening operations from the airport lobby.
However, in-line EDS systems are considerably more costly than stand-alone EDS, and many airports are not
configured to accommodate installation of EDS technology in-line without extensive facility modifications.
These funds are available only for physical modification of commercial service airports for the purpose of
installing checked baggage EDS.
Airport Renovation Program – TSA entered into Other Transaction Agreements with 17 airports. These other
transaction agreements are to establish the respective cost-sharing obligations and other responsibilities of the
TSA and the specific entity (Board, Port, or Authority) relating not only to the installation of integrated and non-
integrated EDS and Explosives Trace Detection (ETD) equipment, but also to the improvements to be made to
the existing systems, in the baggage handling area. All work will be completed in order to achieve compliance
with the Aviation and Transportation Security Act (ATSA) Public Law 107-71, November 19, 2001.

Port Security Grant Program – This program provided grants to critical national seaports to support the security
efforts at the port through enhanced facility and operational security. These grants contribute to important
security upgrades such as surveillance equipment, access controls to restricted areas, communications equipment,
and the construction of new command and control facilities.

Intercity Bus Security Program – This program provides funds to improve security for intercity bus operators and
passengers. TSA awards grants based on the following program categories:

•     Vehicle specific security enhancements to protect or isolate the driver, such as alarms and security mirrors.
•     Monitoring, tracking, and communication technologies for over-the-road buses.
•     Implementation and operation of passenger and baggage screening programs at terminals and over-the road
      buses.
•     Development of an effective security assessment/security plan that identifies critical security needs and
      vulnerabilities.




                                                        31
                     UNITED STATES DEPARTMENT OF HOMELAND SECURITY
                         TRANSPORTATION SECURITY ADMINISTRATION
                                Required Supplementary Stewardship Information
                                                    (Unaudited)
                                                September 30, 2006



•     Training for drivers, dispatchers, ticket agents, and other personnel in recognizing and responding to
      criminal attacks and terrorist threats, evacuation procedures, passenger screening procedures, and baggage
      inspection.
•     Facility security enhancements (alteration/renovation) to terminals, garages and facilities, including but not
      limited to: fencing, lighting, secured access, locking down of vehicles, and securing of bus yards/depots.


Investments in Human Capital
Highway Watch Cooperative Agreement – This cooperative agreement between TSA and the American Trucking
Association (ATA) expands ATA’s Highway Watch program, which educates highway professionals to identify
and report safety and security situations on our Nation’s roads. The program provides training and
communications infrastructure to prepare 400,000 transportation professionals to respond in the event they or
their cargo are the target of a terrorist attack and to share valuable intelligence with TSA if they witness potential
threats. The intelligence allows Federal agencies and industry stakeholders to quickly move to prevent an attack
or to immediately respond if an attack occurs.

Investments in Research and Development
Applied Research Projects – TSA funds applied research projects and grants to develop advance security
technology equipment and systems. Projects include partnerships with George Mason University, the Regional
Maritime Security Coalition, and the Federal Aviation Administration. These applied research projects include
human factors research intended to enhance screener capabilities, improve person-machine performance, and
increase human system effectiveness; ongoing certification testing of EDS and ETD technology; and
infrastructure protection research related to using biometrics for passenger access controls and tracking.

Operation Safe Commerce – Operation Safe Commerce is a pilot program that brings together private business,
ports, local, state, and federal representatives to analyze current security procedures for cargo entering the
country. The ports of Seattle and Tacoma, Los Angeles and Long Beach, and the Port Authority of New
York/New Jersey are participating in the pilot program. The program functions like a venture capital fund to
utilize existing technology to monitor the movement and integrity of containers through the supply chain.
Selected ports test new technologies and initiatives in selected supply chains. The new technologies look at
improving security during the process of stuffing and deconsolidating containers, physically securing and
monitoring containers as they are transported through the supply chain, and exchanging timely and reliable
communication.




                                                         32
Report Distribution




                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 Executive Secretariat
                 Chief of Staff
                 Deputy Chief of Staff
                 General Counsel
                 Assistant Secretary for Policy
                 Assistant Secretary for Public Affairs
                 Assistant Secretary for Legislative Affairs
                 Under Secretary, Management
                 Chief Financial Officer
                 Chief Information Officer
                 Chief Security Officer
                 Chief Privacy Officer
                 DHS GAO/OIG Liaison

                 Transportation Security Administration

                 Assistant Secretary for Transportation Security Administration
                 Chief Financial Officer
                 Chief Information Officer
                 OIG Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Program Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
